                                     UNITED STATES DEPARTMENT OF EDUCATION
                                                          OFFICE OF INSPECTOR GENERAL

                                                                                                Evaluation and Inspection Services

                                                              November 24, 2009
                                                                                                            Control Number
                                                                                                            ED-OIG/I13J0004
Belle S. Wheelan, Ph.D.
President
Southern Association of Colleges and Schools
Commission on Colleges
1866 Southern Lane
Decatur, GA 30033

Dear Dr. Wheelan:

This final management information report presents the results of our review of the Southern
Association of Colleges and Schools – Commission on Colleges’ (SACS) standards for program
length and SACS’s response to those results.

The objectives of our inspection were to determine: (1) what guidance SACS provides to
institutions regarding program length and credit hours, (2) what guidance SACS provides to peer
reviewers to assess program length and credit hours when evaluating institutions, and (3) what
documentation SACS maintains to demonstrate how it evaluates institutions’ program length and
credit hours. Although SACS has a clearly defined minimum standard for program length in
terms of credit hours, it has not defined what constitutes a credit hour. Without defining a
minimum standard for credit hours, SACS cannot ensure that its standard is being consistently
applied.



                                                      BACKGROUND


Accrediting agencies are private educational associations that develop evaluation criteria and
conduct peer evaluations of institutions of higher education to ensure that the education provided
by those institutions meets acceptable levels of quality. The U.S. Department of Education
(Department) does not determine the quality of education funded by Federal education dollars;
however, the Secretary recognizes accrediting agencies as reliable authorities for the quality of
education. In order for an accrediting agency to be recognized by the Department, it must submit
an application for recognition. Under 34 C.F.R. § 602.16(a) (2008) an accrediting agency is
required to demonstrate that it has standards for accreditation that are “sufficiently rigorous to
ensure that the agency is a reliable authority regarding the quality of the education or training
provided by the institutions or programs it accredits.” The agency meets this requirement if its
accreditation standards effectively address the quality of the institution or program in ten areas,
including (ii) curricula and (viii) measures of program length and the objectives of the degrees or
credentials offered.



 The Department of Education's mission is to promote student achievement and preparation for global competitiveness by fostering educational
                                                   excellence and ensuring equal access.
In 2008, there were 7 regional accrediting agencies that accredited 2,897 institutions of higher
education. These institutions received $74.8 billion in Title IV funding. 1 The Southern
Association of Colleges and Schools – Commission on Colleges accredits institutions in
Alabama, Florida, Georgia, Kentucky, Louisiana, Mississippi, North Carolina, South Carolina,
Tennessee, Texas, and Virginia. Institutions accredited by SACS received over $19 billion of
the $74.8 billion in Title IV funding in 2008.

Section 496(a)(5)(H) of the Higher Education Act, as amended, requires accrediting agencies to
establish accreditation standards that assess the institution’s measures of program length. In
2003, the Office of Inspector General (OIG) issued a management information report entitled
Southern Association of Colleges and Schools, Commission on Colleges’ Accreditation
Standards for Student Achievement and Program Length (ED-OIG/A09-C0018). That report
found that SACS’s standards on program length require institutions to specify the number of
credit hours in an educational program and provide guidance on program content. The report
also stated that SACS did not define what constitutes a credit hour. In its comments on the
report, SACS disagreed with the OIG’s conclusion that the agency’s standards covering student
achievement and program length have inherent limitations. SACS did not provide specific
comments addressing the OIG suggestions for its standards and management controls.

In 2002, SACS revised its standards for accreditation and developed its Principles of
Accreditation which it began implementing in 2004. SACS also revised its review process
beginning with leadership orientations during which institutions are provided with SACS’s
Principles of Accreditation and given the opportunity to meet their SACS contact person.
Institutions are required to submit a Quality Enhancement Plan (QEP) and a Compliance
Certification instead of the previously required self-study.

In the Compliance Certification, institutions provide justification for compliance with each of
SACS’s Principles of Accreditation. The institution’s QEP focuses on student learning with an
emphasis on outcomes and methods of assessment. Once a Compliance Certification is sent to
SACS, an off-site committee reviews the certification.

The off-site committee compiles a report that is sent to the institution’s president, who has the
option of sending back a report focusing on the off-site committee’s comments. The off-site
committee’s report and institution’s focused report are sent to an onsite committee that looks at
the QEP, any non-compliance issues, and all standards identified as criteria of the Secretary of
the Department of Education.

The onsite committee is charged with evaluating the QEP and making final determinations of
compliance with the Principles of Accreditation’s core requirements, comprehensive standards,
and federal requirements. The onsite committee compiles a report based on their review that is
sent to the SACS Executive Council for its approval and then to the full Board of Trustees for
final action on accreditation.




1
 Title IV funding is federal student financial aid provided through the Federal Stafford Loan, the PLUS Loan, the
Federal Perkins Loan, the Federal Pell Grant, the Academic Competitiveness Grant, the National Science &
Mathematics Access to Retain Talent Grant, the Federal Supplemental Educational Opportunity Grant, and Federal
Work Study programs.


                                                      2
                                    REVIEW RESULTS


The objectives of our inspection were to determine: (1) what guidance SACS provides to
institutions regarding program length and credit hours, (2) what guidance SACS provides to peer
reviewers to assess program length and credit hours when evaluating institutions, and (3) what
documentation SACS maintains to demonstrate how it evaluates institutions’ program length and
credit hours. We found that:

   •   SACS provides guidance to institutions regarding program length and credit hours,
       however, it does not provide guidance on the minimum requirements for the assignment
       of credit hours,
   •   SACS provides guidance to reviewers regarding the assessment of program length, but
       does not provide reviewers guidance regarding the assessment of credit hours, and
   •   SACS maintains documentation to demonstrate that it evaluates institutions’ program
       length and credit hours.

Although SACS has a clearly defined minimum standard for program length in terms of credit
hours, it has not defined what constitutes a credit hour. Without defining a minimum standard
for credit hours, SACS cannot ensure that its standard is being consistently applied.


Guidance to Institutions Regarding Program Length and Credit Hours

SACS provides institutions with guidance regarding program length in Core Requirement 2.7.l
(Program Length) of its Principles of Accreditation. The requirement clearly defines minimum
semester credit hour requirements for associate, baccalaureate, and graduate degrees as follows:

   The institution offers one or more degree programs based on at least 60 semester credit hours
   or the equivalent at the associate level; at least 120 semester credit hours or the equivalent at
   the baccalaureate level; or at least 30 semester credit hours or the equivalent at the post-
   baccalaureate, graduate, or professional level. If an institution uses a unit other than semester
   credit hours, it provides an explanation for the equivalency. The institution also provides a
   justification for all degrees that include fewer than the required number of semester credit
   hours or its equivalent unit.

SACS provides further guidance on this requirement in its Resource Manual for the Principles of
Accreditation (Resource Manual) by suggesting questions for institutions and reviewers to
consider specific to Core Requirement 2.7.1, including how the institution identifies the
minimum number of credit hours required for degrees; what policies and procedures the
institution has related to new programs; and if an institution uses a unit other than a semester
hour, what is the equivalency of that unit to a semester hour and how was that equivalency
determined. The Resource Manual also provides general descriptions of documentation that
could be used to support compliance with this requirement, such as a course catalog, internal and
external program reviews, and a description of any unit that is the equivalent of a semester hour
and how it determines program length.



                                               3
SACS does not provide institutions with guidance on what constitutes a credit hour, but does
provide general guidance on the awarding of credits in Comprehensive Standard 3.4.6 (Practices
for Awarding Credit) of its Principles of Accreditation. The standard states:

       The institution employs sound and acceptable practices for determining the amount and
       level of credit awarded for courses, regardless of format or mode of delivery.

Further guidance on this standard is provided to institutions and reviewers in SACS’s Resource
Manual. The Resource Manual provides three questions for institutions and reviewers to consider
with regard to Comprehensive Standard 3.4.6, specifically 1) how the institution ensures the
equivalency of credits awarded for alternative format courses, 2) what policies the institution has
to determine the level and amount awarded, and 3) how the institution uses standards or
professional organizations or practices of peer institutions in developing its credit awarding
policies. The Resource Manual also provides general descriptions of documentation that could
be used to support compliance with this standard including a course catalog identifying the
credits assigned to courses and modes of instruction and any policies, guidelines, or written
procedures for establishing and evaluating the award of credit. SACS does not provide
institutions with specific criteria on what would constitute sound and acceptable practices for
determining the amount and academic level of credit for courses. The Resource Manual does not
contain further guidance on determining equivalency of courses offered in alternative formats.


Guidance to Reviewers Regarding the Assessment of Program Length and Credit Hours

SACS does provide reviewers guidance regarding program length in its Core Requirement 2.7.1,
but as stated above, does not provide guidance on what constitutes a credit hour. The minimum
numbers of credit hours required for each degree is explicit in the wording of the requirement as
shown above. Reviewers are also provided with the Resource Manual containing the
considerations and information on documentation examples specific to the requirement used by
institutions.

SACS’s Comprehensive Standard 3.4.6 addresses the awarding of credit hours stating that the
“institution employs sound and acceptable practices for determining the amount and level of
credit awarded for courses. . . .” SACS provides reviewers with the additional information in the
Resource Manual but does not provide reviewers guidance on what constitutes a “sound and
acceptable practice” for assigning credit hours. Our file review showed that review teams did
examine the practices of awarding credit relying on professional judgment to determine what
was sound and acceptable. A letter from SACS denying one institution’s request to add a new
program shows that SACS can identify what constitutes an unacceptable practice for awarding
credit, but SACS does not provide institutions and reviewers with a minimum requirement
related to the assignment of a credit hour.

SACS provides reviewers with its Handbook for Review Committees (Handbook) which includes
guidance on general review team procedures. The Handbook emphasizes the reviewer’s use of
professional judgment to determine an institution’s compliance, based on the reviewer’s
experiences, expertise, and familiarity with studies of best practices in higher education.
However, the Handbook does not contain specific criteria for reviewers to use when evaluating
institutions’ compliance with the Principles of Accreditation.



                                               4
Documentation SACS Maintains to Demonstrate How it Evaluates Institutions’ Program
Length and Credit Hours

SACS maintains documentation showing a transparent review of program length and the process
for assigning credit hours. Specifically, SACS maintains the compliance certification, the QEP,
the review team report, and any subsequent correspondence to address recommendations from
the review team for institutions applying for initial accreditation or reaffirmation of
accreditation. In the compliance certification, institutions provide a narrative explaining their
compliance with each of the items in SACS’s Principles of Accreditation, including Core
Requirement 2.7.1 and Comprehensive Standard 3.4.6, along with references to additional
documentation to support their narrative.

The committee reports show evidence of review of the institution’s compliance with SACS’s
Principles of Accreditation by both the off-site and onsite committees. The committee reviews
are transparent as a result of SACS’s standards and review process, with both the compliance
certification and committee report organized by SACS’s Principles of Accreditation. The
committee reports show clear documentation of the review team’s evaluation of Core
Requirement 2.7.1 and Comprehensive Standard 3.4.6. In some cases, the committee reports
showed an extensive review by the committee, referencing a variety of documentation provided
by the institution, describing the committee’s independent searches for information, providing
additional suggestions for improvement, and explaining the onsite committee’s follow-up on
issues raised by the off-site committee. In other cases, committee reports simply stated that the
institution had met the standard or requirement with a brief explanation of the institution’s
compliance. Although the depth of the review teams’ evaluations varied in committee reports,
SACS does maintain documentation to demonstrate that the review committees evaluated
institutions’ program length and process for assigning credit hours.


OIG Conclusion
SACS has a clearly defined minimum standard for program length in terms of credit hours, but
does not define what constitutes a credit hour. Title IV funding for students is based on the
number of credit hours a student takes. SACS does not have a minimum standard related to the
definition of a credit hour and does not provide criteria for reviewers to use to evaluate sound
and acceptable practices for assigning credit hours. SACS relies on the professional judgment of
its reviewers. Our file review showed that reviewers did exercise their professional judgment to
determine what was sound and acceptable, but that the level of documentation of that review
varied. Without defining a minimum standard for credit hours, SACS cannot ensure that
Comprehensive Standard 3.4.6 is being consistently applied which could result in inflated credit
hours, the improper designation of full-time student status, and the over-awarding of Title IV
funds.



                                    SACS COMMENTS


On September 29, 2009, we provided SACS with a copy of our draft management information
report for comment. We received SACS’s comments to the report on October 21, 2009. SACS


                                              5
did not take issue with any of the results presented in the draft report. SACS did identify two
sentences in the background section that required clarification and those sentences have been
modified. SACS also provided its perspective on the definition of a credit hour stating that there
are a number of traditional practices in the awarding of credit, as well as the more recent
proliferation of distance learning programs, that affect what the academy would normally define
as a credit hour and its minimum requirements. SACS acknowledged that there is an expectation
that accrediting bodies adopt and apply a definition of what constitutes a credit hour so that it can
be applied across the board to all learning experiences, including distance learning. SACS stated
that the traditionally accepted definitions of semester credit hours and quarter credit hours based
almost exclusively on seat time can no longer be applied to half of the credits now being
awarded by its higher education institutions. SACS’s response, in its entirety, is attached.



                   OBJECTIVE, SCOPE, AND METHODOLOGY


The objectives of our inspection were to determine:

   (1) What guidance SACS provides to institutions regarding program length and credit hours,
   (2) What guidance SACS provides to peer reviewers to assess program length and credit
       hours when evaluating institutions, and
   (3) What documentation SACS maintains to demonstrate how it evaluates institutions’
       program length and credit hours.

We notified SACS of our inspection on June 19, 2009, and began our fieldwork on August 3,
2009. We conducted an exit conference on September 21, 2009.

We reviewed applicable laws and regulations related to the accreditation of institutions. We also
reviewed guidance that SACS provided to its institutions and to its peer reviewers including its
Principles of Accreditation, Resource Manual for the Principles of Accreditation, Handbook for
the Reaffirmation of Accreditation and Handbook for Review Committees. We interviewed
relevant officials at SACS.

We reviewed SACS’s files for a judgmental sample of institutions that SACS has accredited.
We selected two public, two private, and two proprietary schools based on the highest amount of
Title IV funding received for each type of institution in 2008. We selected the University of
Texas at Austin and University of Florida as the public institutions; Nova Southeastern
University and Liberty University as the private institutions; and Keiser University and South
University as the proprietary institutions. American Intercontinental University (AIU) was listed
as the proprietary school accredited by SACS that received the most Title IV funds in 2008 but
we did not review AIU’s file since they were no longer accredited by SACS at the time of our
review.

We requested a listing of all institutions with a final action for a substantive change from
January 1, 2008 through June 1, 2009, as specified in 34 C.F.R. 22(a)(2)(iii) through (vi) and a
listing of all institutions that were newly accredited by SACS from January 1, 2008, through
June 1, 2009. We reviewed the files for two institutions from each listing. For substantive
change we selected two institutions that were adding baccalaureate programs, Polk State College


                                               6
(formerly Polk Community College) and Young Harris College, based on the types of programs
being added. For newly accredited schools we selected Georgia Gwinnett College and Louisiana
Delta Community College based on the level and type of programs being offered. We also
reviewed the substantive change request from Mid-Continent University based on a
recommendation from SACS.

Our inspection was performed in accordance with the 2005 President’s Council on Integrity and
Efficiency Quality Standards for Inspections appropriate to the scope of the inspection described
above.



                            ADMINISTRATIVE MATTERS


In accordance with the Inspector General Act of 1978, as amended, the Office of Inspector
General is required to report to Congress twice a year on the audits that remain unresolved after
six months from the date of issuance.

In accordance with the Freedom of Information Act (5 U.S.C. §552), reports issued by the Office
of Inspector General are available to members of the press and general public to the extent
information contained therein is not subject to exemptions in the Act.

We appreciate the cooperation given us during this review. If you or your staff have any questions,
please contact W. Christian Vierling, Director, Evaluation and Inspection Services at 202-245-6964.


Respectfully,

/s/

Wanda A. Scott
Assistant Inspector General
Evaluation, Inspection, and Management Services




Electronic cc:   Daniel T. Madzelan, Delegated the Authority to Perform the Functions and
                 Duties of the Assistant Secretary for Postsecondary Education




                                               7
                                        October 21, 2009



Mr. W. Christian Vierling
Director
Evaluation and Inspection Services
Office of Inspector General
555 12th Street, S.W., Room 8153
Washington, D.C. 20024

Dear Mr. Vierling:

Thank you for the opportunity to comment on the draft management information report provided
to my office on September 29, 2009. We have read it carefully and find that it is a
comprehensive assessment of our practices. Although it is not necessary for us to comment on
the findings of the report since it does not contain recommendations for corrective action, we
would like to make a few points for your consideration.

First, upon further scrutiny, we found two sentences requiring factual corrections and would
appreciate your making them for the record. On page 2, last paragraph, the last sentence
should read as follows: “The off-site committee’s report and institution’s focused report are sent
to an onsite committee that looks at the QEP, any non-compliance issues, and all standards
identified as criteria of the Secretary of the Department of Education.” You may recall that we
have asterisked 14 standards that are directly related to those of the DOE; those are reviewed
during the off-site and the on-site evaluations.

The second correction is on page 3, first paragraph, the last sentence. A revised sentence
should read as follows: “The on-site committee compiles a report based on their review that is
sent to the Executive Council for approval and then to the full Board of Trustees for final action
on accreditation.” Without adding the underlined phrase, it appears that the 13-member Council
makes final decisions on the accreditation status of institutions.

Second, I would like to reiterate what we discussed about the definition of a credit hour. There
are a number of traditional practices in the awarding of credit, as well as the more recent
proliferation of distance learning programs, that affect what the academy would normally define
as a credit hour and its minimum requirements. For years the assignment of
Mr. W. Christian Vierling
October 21, 2009
Page 2


credit hours for experiential learning, advanced placement, and professional certificates has
rested solely with the institution awarding the credit. Given the variety of experiences that would
allow for such credit, it has been, and will continue to be, impossible to define for all institutions
what constitutes a credit hour as applied to those credit assignments. As part of its standards
for accreditation, our membership has expected institutions to define and publish their policies
for evaluating and awarding such credit.

In addition, the traditional practice of accepting credit for transfer goes against a generic
definition of what constitutes a credit hour. It is the responsibility of the accepting institution to
determine the equivalency of credit awarded for courses taken at another institution—an
institution that might not use the same unit of credit as the institution accepting the credit.

And then there is distance learning whereby, like the practices described above, seat time
cannot be measured. Yet, with this explosion of renewed traditional practices and new learning
methods, there is an expectation that accrediting bodies adopt and apply a definition of what
constitutes a credit hour so that it can be applied across the board to all learning experiences.

It is the practice of SACS Commission on Colleges to hold institutions accountable for the
academic quality of any and all course work or credit recorded on an institution’s transcript. It
does this by engaging evaluators from peer institutions and training them to make professional
judgments using as a framework the expectation that an institution makes these decisions
consistent with its mission and ensuring that the course work and learning outcomes are at the
collegiate level and that all degree programs offered by the institution are comparable. The
traditionally accepted definitions of semester credit hours and quarter credit hours based almost
exclusively on seat time can no longer be applied to half of the credits now being awarded by
our higher education institutions.

Thank you for this opportunity to comment and we look forward to receiving your final report.

Sincerely,

/s/

Belle S. Wheelan, Ph.D.
President

BSW/CAL:rb
